No.

1.0-1537

IN THE SUPREME COURT OF THE UNITED STATES

TERENCE K. DICKINSON
Petitioner
v.
HSBC BANK USA, N.A., et. al.
Respondent

FILED
APR 21 2021
I^HecoubIuH

PETITION FOR WRIT OF CERTIORARI TO THE US
SUPREME COURT

TERENCE K. DICKINSON
3611 Duke Homestead Road
Durham, NC 27704

received
APR 3 0 2021

QUESTION PRESENTED
(Rule 14.1(a))
1. Is the Truth-in-Lending-Act, passed by Congress into law, to be adhered
to by the United States Federal Courts.
Lower Court: relegates said Act to be a purported act of Congress.

TABLE OF CONTENTS

OPINION BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED

2

STATEMENT OF CASE

3

REASONS FOR GRANTING THE PETITION

6

CONCLUSION.

7

APPENDICES:
Appendix A - Opinion of 9th Circuit Court of Appeal

8

TABLE OF AUTHORITIES
Truth in Lending Act (TILA)

2

Fourteenth Amendment, U.S. Constitution

2

Jesinoski v. Countrywide Home Loans, Inc. et. al.

li

5,6

No.

IN THE SUPREME COURT OF THE UNITED STATES

TERENCE K. DICKINSON, Petitioner
v.
HSBC BANK USA., N.A., et. al., Respondents

PETITION FOR WRIT OF CERTIORARI FROM
NINTH CIRCUIT COURT OF APPEALS

Petitioner, TERENCE K. DICKINSON, respectfully asks that a writ of certiorari
issue to review the judgment and opinion of the 9th Circuit Court of Appeals, filed on

OPINION BELOW
The opinion of the 9th Circuit Court of Appeals DENIED Petitioner’s Petition and
En Banc Hearing., and is attached as Appendix A.
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

1

CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
The Federal Truth in Lending Act provides, in pertinent part:
“This Act (Title I of the Consumer Credit Protection Act) authorizes the
Commission to enforce compliance by most non-depository entities with a variety
of statutory provisions. Among other requirements, the Act requires creditors who
deal with consumers to make certain written disclosures concerning finance
charges and related aspects of credit transactions (including disclosing an annual
percentage rate) and comply with other mandates, and requires advertisements to
include certain disclosures. The Act has been amended on numerous occasions,
adding requirements for credit cards and open-end credit; for mortgage credit such
as ability to repay standards, loan origination, anti-steering, appraisal
independence, and mortgage servicing; and others. A number of laws amending
and enforced under this Act are listed separately.”
United States Constitution, Amendment 14 provides, in relevant part:
No state . . . shall deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection
of the laws.

2

STATEMENT OF CASE
A. The underlying dispute and lengthy litigation of this case began in 2007
in a Nevada State Court, the County of Clark. In 2008, the real estate market
crashed, backlogging the courts. By 2007, however, the judicial system in Nevada
had recognized serious irregularities in the manner of mortgages and increased
litigation relating to the same. To streamline case docketing, to promptly handle a
sudden burden on the judicial system, a specialized docket was established to
handle mortgage cases. The instant case was assigned to that specialized docket.
The arduous nature of this case began there.
The assumption of being assigned to the specialized “mortgage docket” was
that a mortgage was at issue, or the case would not be on this docket.
In this case, no mortgage existed between the parties.
Plaintiff already paid his mortgage in full to Bank of America, which
exhibits has been provided to this court.

The 2nd mortgage was initiated by

representatives of Fidelity Mortgage of New York. [See Deed of Trust]
Appellant signed the Deed of Trust presented to him at his home with
representatives of Fidelity, but after sleeping on the matter, signed and duly served
the Notice of Cancellation. See Appellant’s Exhibit, Executed Right to Cancel.
That should have been the end of the matter - but it was not.
3

Respondent HSBC and OCWEN were in the late stages of purchasing
mortgage from Fidelity of New York. It appears that the Appellant’s 2nd mortgage
was included in that deal - even though it was cancelled. The Sate Courts would
not recognize the validity of the TILA nor its consequences.
B. Current Action
That Plaintiff has and had the right to rely upon valid law.

The

Respondent’s position is that, due to their lack of due diligence, Appellant should
have to pay for his home at least twice.
The Federal District Court decision states, “Dickinson filed...his purported
“right of cancellation documents” but makes no further reference to said right.
This issue was never addressed in State Court, it being a Federal right.
Even though Respondent admits the Bank of America submitted a
“Securitization Audit” [Page 5 Respondent’s Reply to Appellant’s Statement]
stating Appellant is the rightful owner of said property, free and clear, Respondent
makes no mention of that document. Respondent repeatedly argues that Appellant
took out several loans on his home an paid most of them off. [Page 6 Respondent’s
Reply to Appellant’s Statement.] This is merely Respondent trying to infer that
Appellant was wheeling and dealing as they do. Appellant had one mortgage with

4

Bank of America on his home and has never borrowed money for anything else not even his automobile.
POINTS AND AUTHORITIES
In addition to the Truth-in-Lending-Act, this case is right on point with
Jesinoski, et ux v. Countrywide Home Loans, Inc., et. al.
This case has been summarized as follows:
“Exactly three years after borrowing money from respondent Countrywide
Home Loans, Inc., to refinance their home mortgage, petitioners Larry and
Cheryle Jesinoski sent Countrywide and respondent Bank of America Home
Loans, which had acquired Countrywide, a letter purporting to rescind the
transaction. Bank of America replied, refusing to acknowledge the
rescission’s validity. One year and one day later, the Jesinoskis filed suit in
federal court, seeking a declaration of rescission and damages. The District
Court entered judgment on the pleadings for respondents, concluding that a
borrower can exercise the Truth in Lending Act’s right to rescind a loan, see
15 U. S. C.
§ 1635(a), (f), only by filing a lawsuit within three years of the date the loan
was consummated. The Jesinoskis’ complaint, filed four years and one day
after the loan’s consummation, was ineffective.
The Eighth Circuit affirmed.
The court held as follows:
A borrower exercising his right to rescind under the Act need only provide
written notice to his lender within the 3-year period, not file suit within that
period. Section 1635(a)’s unequivocal terms—a borrower “shall have the
right to rescind ... by notifying the creditor . . .of his intention to do so”
(emphasis added)—leave no doubt that rescission is effected when the
borrower notifies the creditor of his intention to rescind. This conclusion is
not altered by §1635(f), which states when the right to rescind must be
exercised, but says nothing about how that right is exercised. Nor does
5

§163 5(g)—which states that “in addition to rescission the court may award
relief . . . not relating to the right to rescind”—support respondents’ view
that rescission is necessarily a consequence of judicial action. And the fact
that the Act modified the common-law condition precedent to rescission at
law, see § 1635(b), hardly implies that the Act thereby codified rescission in
equity.
Pp. 2-5. 729 F. 3d 1092, reversed and remanded.
Appellant herein timely rescinded the loan.

There was proper notice

provided.
Appellant merely seeks this court to acknowledge he never received
proceeds from the refinance - and Respondent CANNOT prove receipt of such
funds by Plaintiff.
It is a travesty of justice that this matter cannot be resolved by the merits of
the case. Appellant has lost his home due to this wrongdoing, and has no where
else to turn.
REASONS FOR GRANTING THE PETITION
This case presents an important issue relating to the Truth-in-Lending Act.
Appellant never received the proceeds of the loan after a rescission, yet the bank
continued to proceed as if the Appellant had, in fact, received the loan - which he
did not. Is that what always happens when a party rescinds properly within three
days? Is there no resolution to such a situation?
6

CONCLUSION
Appellant’s timely cancellation of the refinance, pursuant to TILA, means
Appellant is entitled to relief.

Appellant merely desires Respondent to

acknowledge wrongful possession and acquisition of the residence, as Appellant
never received a loan against this property, upon which Respondent has foreclosed.
Dated: 4/19/21
Respectfully submitted,
/s/ Terence K. Dickinson
TERENCE K. DICKINSON

7

